                             Limited Official Use




             Security Controls Over the Internal Revenue
                   Service’s External Web Servers
                      Need to Be Strengthened

                             September 2004

                    Reference Number: 2004-20-188



    The Treasury Inspector General for Tax Administration (TIGTA) has
   designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
   “Limited Official Use Information and Other Legends.” Because this
   document has been designated LOU, it may only be made available to
 those officials that have a need to know the information contained within
 this report in the performance of their official duties. This report must be
  safeguarded and protected from unauthorized disclosure; therefore, all
  requests for disclosure of this report must be referred to the Disclosure
             Section within the TIGTA’s Office of Chief Counsel.




                             Limited Official Use
                                  Limited Official Use
                 Security Controls Over the Internal Revenue Service’s
                    External Web Servers Need to Be Strengthened



                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Theodore Grolimund, Audit Manager
Dan Ardeleano, Senior Auditor
Richard Borst, Senior Auditor
Allen Gray, Senior Auditor
Myron Gulley, Senior Auditor
Midori Ohno, Senior Auditor
Stasha Smith, Senior Auditor




                                 Limited Official Use                                Page 2
